COMPLIANCE WITH STANDARDS GOVERNING
 COMBINED DNA INDEX SYSTEM ACTIVITIES
      AT THE IDAHO STATE POLICE
    FORENSIC SERVICES LABORATORY
           MERIDIAN, IDAHO




       U.S. Department of Justice
     Office of the Inspector General
              Audit Division


      Audit Report GR-60-10-001
             January 2010
     COMPLIANCE WITH STANDARDS GOVERNING
   COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE
 IDAHO STATE POLICE FORENSIC SERVICES LABORATORY
                 MERIDIAN, IDAHO

                              EXECUTIVE SUMMARY


       The Department of Justice, Office of the Inspector General (OIG),
Audit Division, has completed an audit of compliance with standards
governing Combined DNA Index System (CODIS) activities at the Idaho
State Police Forensic Services Laboratory (Laboratory). The Federal Bureau
of Investigation’s (FBI) CODIS program blends forensic science and
computer technology to provide an investigative tool to federal, state, and
local crime laboratories in the United States, as well as those from select
international law enforcement agencies. The CODIS program allows
laboratories to compare and match DNA profiles electronically to assist law
enforcement in solving crimes and identifying missing or unidentified
persons. The FBI’s CODIS Unit manages CODIS, as well as develops,
          1

supports, and provides the program to crime laboratories to foster the
exchange and comparison of forensic DNA evidence.

      The FBI implemented CODIS as a distributed database with
hierarchical levels that enable federal, state, and local crime laboratories to
compare DNA profiles electronically. The hierarchy consists of three distinct
levels that flow upward from the local level to the state level and then, if
allowable, the national level. National DNA Index System (NDIS), the
highest level in the hierarchy, is managed by the FBI as the nation’s DNA
database containing DNA profiles uploaded by law enforcement agencies
across the United States. NDIS enables the laboratories participating in the
CODIS program to electronically compare DNA profiles on a national level.
The State DNA Index System (SDIS) is used at the state level to serve as a
state’s DNA database containing DNA profiles from local laboratories and
state offenders. The Local DNA Index System (LDIS) is used by local
laboratories.


       1
          DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9-percent of human DNA is the same for all people. The differences
found in the remaining 0.1-percent allow scientists to develop a unique set of DNA
identification characteristics (a DNA profile) for an individual by analyzing a specimen
containing DNA.
      The objectives of our audit were to determine if the: (1) Laboratory
was in compliance with the NDIS participation requirements; (2) Laboratory
was in compliance with the Quality Assurance Standards (QAS) issued by the
FBI; and (3) Laboratory’s forensic DNA profiles in CODIS databases were
complete, accurate, and allowable for inclusion in NDIS. The results of our
review are below.

      •   The Laboratory was in compliance with the NDIS participation
          requirements. Specifically, we found that CODIS access is properly
          safeguarded, Laboratory personnel requirements are being fulfilled,
          and policies and procedures related to NDIS are available and
          followed by Laboratory staff.

      •   The Laboratory was in compliance with the Quality Assurance
          Standards. Specifically, we found that the Laboratory complied
          with external quality assurance audit requirements and provided
          adequate security for the storage, processing, and retention of
          samples.

      •   The 55 forensic profiles included in our sample were complete and
          accurate. However, 1 of the 55 profiles was unallowable for
          inclusion in NDIS because it matched the victim profile and was
          subsequently removed from NDIS.

      The results of our audit are discussed in detail in the Findings section
of the report. Our audit objectives, scope, and methodology are detailed in
Appendix I of the report and the audit criteria are detailed in Appendix II.

      We discussed the results of our audit with Laboratory officials and
have included their comments in the report as applicable. Since we make no
recommendations for corrective action, the FBI and the Laboratory did not
provide a formal response to the draft report and agreed to the issuance of
the report in final.
